Audit Report

Compliance with Standards Governing Combined DNA Index System Activities at 
the City of New York, Office of Chief Medical Examiner 
Department of Forensic Biology, New York, New York

Report No. GR-70-05-009


February 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the City of New York, Office of Chief Medical Examiner, Department of Forensic Biology (Laboratory).1   The Federal Bureau of Investigation (FBI) began the CODIS Program as a pilot project in 1990.  The DNA Identification Act of 1994 (Public Law 103-322) formalized the FBIs authority to establish a national DNA index for law enforcement purposes.  The Act specifically authorized the FBI to establish an index of DNA identification records of persons convicted of crimes, and analyses of DNA samples recovered from crime scenes.  The Act further specified that the index include only DNA information that is based on analyses performed in accordance with standards issued by the FBI.

The FBI implemented CODIS as a distributed database with three hierarchical levels that enables federal, state, and local crime laboratories to compare DNA profiles electronically.  The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS Program to compare DNA profiles on a national level.  The NDIS became operational in 1998 and is managed by the FBI as the nations DNA database containing DNA profiles uploaded by participating states.  DNA profiles originate at the local level, flow to the state and national levels, and are compared to determine if a convicted offender can be linked to a crime, or if crimes can be linked to each other.

The FBI provides CODIS software free of charge to any state or local law enforcement laboratory performing DNA analysis.  A laboratorys profiles have to be uploaded to the NDIS before the profiles benefit the system as a whole.  Before a laboratory is allowed to participate at the national level a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory.  The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet in order to utilize the NDIS.2
The objective of the audit was to determine if the Laboratory was in compliance with standards governing CODIS activities.  Specifically, we performed testing to determine if the:  1) Laboratory was in compliance with the NDIS participation requirements; 2) Laboratory was in compliance with the quality assurance standards issued by the FBI; and 3) Laboratorys DNA profiles in CODIS databases were complete, accurate, and allowable.

We determined that the Laboratory was in compliance with the standards governing CODIS activities with some exceptions.  Specifically, we noted the following exceptions. 

We tested 10 cases where the CODIS software indicated an interstate candidate match between a known or unknown perpetrator and crime scene evidence.  We found that, in 9 of the 10 cases we tested, the Laboratory did not report the final disposition of the interstate candidate match cases to the NDIS Custodian as the NDIS standards require.3
We reviewed the Laboratorys 2004 external evaluation and found the Laboratory did not submit the results of the evaluation to the NDIS Custodian within the timeframe required by the NDIS standards.

 
	We tested 100 forensic profiles and found 1 profile was incomplete because the Laboratory did not load all of the required loci into the NDIS (by means of the New York State DNA Index System).

Our recommendation to improve the Laboratorys compliance with the NDIS standards is discussed in detail in the Findings and Recommendations section of this report.  Our audit scope and methodology are detailed in Appendix I of the report and the audit criteria are detailed in Appendix II.

We discussed the results of our audit with Laboratory officials and we have included their comments in the report as applicable.  In addition, we requested a written response to a draft of our audit report from the FBI and the Laboratory.  In its response, the Laboratory agreed with our findings and recommendation.  The Laboratory implemented our recommendation and notified the FBI of the disposition of its interstate candidate matches.  The FBI did not comment on two of our findings.  The FBI noted that because the CODIS software now provides electronic notification with regard to the disposition of candidate match cases, the FBI expects the NDIS Procedures Board to clarify a November 2003 revision of its notification standard.  The Laboratorys and the FBIs comments are included in the report as Appendices III and IV, respectively.4


Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life.  Approximately 99.9 percent of human DNA is the same for all people.  The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
	
	These standards were appended to the MOU as Appendix C - NDIS Procedure Manual.  This manual is comprised of several operational procedures that provide specific instructions for laboratories to follow for procedures pertinent to NDIS.  For our purposes, the NDIS participation requirements consist of the MOU and the NDIS operational procedures.
	
	In commenting on a draft of this report, the FBI stated that because the CODIS software now provides electronic notification of the disposition of match cases, the NDIS Procedures Board expects to clarify a November 2003 revision of the candidate match standard.  The board is composed of FBI, state, and local personnel who establish, review, and modify the NDIS policies and procedures.  The NDIS Custodian ensures NDIS operations comply with all relevant legislation and regulations. 
	
	The Laboratorys response to our draft report included an enclosure listing the final disposition of each of its candidate match cases.  We did not include this enclosure in our final report.